No.

IN THE
SUPREME COURT OF THE UNITED STATES

CHARLES E. COUGHLIN, PETITIONER
v.
UNITED STATES OF AMERICA

PROOF OF SERVICE
I, Charles E. Coughlin, do swear or declare that on this date, July 20,2020, as required by Supreme
Court Rule 291 have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3 calendar days.

The names and addresses of those served are as follows:
Suzanne Grealy Curt
D.C. Bar #349654
Assistant U.S. Attorney
555 Fourth Street, NW, Room 8104
Washington, DC 20530
(202) 252-6824
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 20, 2020.

0
Charles BsCouahlin
Pro Se

2

